No. 20-1541

 

In THE
Supreme Court of the United States

PIVOTAL SOFTWARE, INC., ET AL., Petitioners,
Vv.
SUPERIOR COURT OF CALIFORNIA,
CITY AND COUNTY OF SAN FRANCISCO, ET AL.

ON A WRIT OF CERTIORARI TO THE COURT OF APPEAL
FOR THE STATE OF CALIFORNIA, FIRST APPELLATE
DISTRICT

AMICUS CURIAE BRIEF OF THE SECURITIES
INDUSTRY AND FINANCIAL MARKETS
ASSOCIATION IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,178 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 23, 2021.

 

Wilson-Epes Printing Co., Inc.
